     Congressional Response Report



The Social Security Administration’s
Policy on Symptom Validity Tests in
   Determining Disability Claims




      A-08-13-23094 | September 2013
                                           September 17, 2013


The Honorable Tom Coburn, M.D.
Ranking Member, Committee on
 Homeland Security and Governmental Affairs
United States Senate
Washington, DC 20510

Dear Senator Coburn:

In a January 30, 2013 letter, you requested our assistance in reviewing a Social Security
Administration (SSA) policy stating that the Agency would no longer allow States’ disability
determination services or SSA administrative law judges to order symptom validity tests.

My office is committed to conducting reviews that identify areas in which SSA can improve the
effectiveness and efficiency of its programs and operations. Thank you for bringing your
concerns to my attention. The report highlights facts pertaining to the issues raised in your letter.
To ensure SSA is aware of the information provided to your office, we are forwarding a copy of
this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Kristin Klima, Congressional and Intragovernmental Liaison at (202) 358-6319.

                                                    Sincerely,



                                                    Patrick P. O’Carroll, Jr.
                                                    Inspector General

Enclosure

cc:
Carolyn W. Colvin




                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
The Social Security Administration’s Policy on Symptom
Validity Tests in Determining Disability Claims
A-08-13-23094
September 2013                                                           Office of Audit Report Summary

Objectives                               Our Findings

To (1) review the Social Security        SSA’s longstanding policy has been to consider all relevant
Administration’s (SSA) policy that       evidence in a claimant’s case record when it makes a disability
prohibits the purchase of symptom        determination. Relevant evidence may include claimants’
validity tests (SVT) in disability       statements regarding their symptoms and pain intensities, given
determinations; (2) determine the        their statements are credible. However, SSA does not allow the
medical community’s opinion on the       purchase of SVTs as part of a consultative examination.
usefulness of SVTs; and (3) determine
whether other Federal agencies and       According to SSA senior officials, the Agency disallowed the
private disability insurance providers   purchase of SVTs because of weaknesses in the tests’ psychometric
consider or fund the purchase of SVTs.   properties and their limited value in determining, with certainty, a
                                         claimant’s credibility. SSA stated that these tests could not prove
Background                               whether a claimant was credible or malingering because there is no
                                         test that, when passed or failed, conclusively determines the
In a January 30, 2013, letter to the     presence of inaccurate self-reporting. However, according to
Inspector General, Senator               medical literature and national neuropsychological organizations,
Tom Coburn, M.D., Ranking Member         there is consensus in the medical community that SVTs are useful
of the Committee on Homeland             in identifying malingering in disability evaluations, when used in
Security and Governmental Affairs,       conjunction with other evidence in the case file.
requested we review SSA’s policy that
disallowed the purchase of SVTs for      Our Conclusions
disability determinations. SVTs are
used to determine whether an             While SSA does not allow the purchase of SVTs in its disability
individual is exhibiting signs of        determinations, we found that medical literature, national
malingering. Malingering is a term       neuropsychological organizations, other Federal agencies, and
used to describe individuals who         private disability insurance providers support the use of SVTs in
intentionally pretend to have, or        determining disability claims.
grossly exaggerate, physical or
psychological symptoms for their own     SSA told us that, as resources allow, it plans to seek external
gain.                                    expertise to evaluate its SVT policy and the usefulness of SVTs in
                                         determining disability, which will also include an Institute of
Senator Coburn also requested that we    Medicine examination on published research and studies on SVTs.
review medical literature and survey     The Agency stated that it was developing the proposal to award a
other agencies and private disability    contract for studying SVTs. We encourage SSA to move forward
insurance providers regarding the        with its plans. We further encourage SSA to evaluate the economic
usefulness of SVTs in determining        costs and benefits of purchasing and using SVTs in its disability
disability.                              determination process.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSA’s Policy and Guidance on Determining the Credibility of Disability Claimants’
     Statements ..................................................................................................................................3
     The Medical Community Generally Considers SVTs Useful in Determining Claimants’
     Eligibility for Disability Benefits...............................................................................................4
     Other Agencies and Private Disability Insurance Providers Allow SVTs in Disability
     Determinations ...........................................................................................................................5
Conclusions ......................................................................................................................................6
Agency Comments ...........................................................................................................................6
Appendix A – Congressional Request ........................................................................................ A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Medical Literature Reviewed .............................................................................. C-1
Appendix D – Agency Comments .............................................................................................. D-1
Appendix E – Major Contributors...............................................................................................E-1




CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)
ABBREVIATIONS
AACN                 American Academy of Clinical Neuropsychology

ALJ                  Administrative Law Judge

CE                   Consultative Examination

C.F.R.               Code of Federal Regulations

DDS                  Disability Determination Services

MMPI                 Minnesota Multiphasic Personality Inventory

NAN                  National Academy of Neuropsychology

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

RRB                  Railroad Retirement Board

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSR                  Social Security Ruling

SVT                  Symptom Validity Test

U.S.C.               United States Code

VA                   Department of Veterans Affairs




CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)
OBJECTIVES
Our objectives were to (1) review the Social Security Administration’s (SSA) policy that
prohibits the purchase of symptom validity tests 1 (SVT) in disability determinations;
(2) determine the medical community’s opinion on the usefulness of SVTs; and (3) determine
whether other Federal agencies and private disability insurance providers consider or fund the
purchase of SVTs.

BACKGROUND
Disability determination services (DDS) in each State or other responsible jurisdiction perform
disability determinations under SSA’s Disability Insurance and Supplemental Security Income
(SSI) programs according to Federal law and regulations. 2 Each DDS is responsible for
determining whether claimants are disabled and ensuring adequate evidence is available to
support its determinations. DDSs rely on physicians, psychologists, and disability examiners to
review medical evidence and the circumstances of each case to determine whether a claimant
meets SSA’s eligibility criteria. SSA policy authorizes DDSs to purchase consultative
examinations (CE), such as medical examinations, X rays, and laboratory tests, when the existing
medical and nonmedical evidence is insufficient to make a determination. 3 Federal law and
regulations also authorize administrative law judges (ALJ) to independently review evidence
related to each claimant’s case and issue a decision based on the evidence. 4

In a January 30, 2013, letter to the Inspector General, Senator Tom Coburn, M.D., 5 requested we
review SSA’s policy that stated it would no longer allow DDSs or ALJs to purchase SVTs. 6
SVTs are used to determine whether an individual is exhibiting signs of malingering.
Malingering is a term used to describe individuals who intentionally pretend to have, or grossly
exaggerate, physical or psychological symptoms for their own gain. 7 The Senator further
requested that we review medical literature to determine the medical community’s opinion



1
 Symptom validity is defined as the accuracy or truthfulness of an examinee’s behavioral presentation, self-reported
symptoms, or performance on neuropsychological measures. Although SVTs are commonly referred to as
malingering tests, malingering is just one possible cause of invalid performance. Shane S. Bush, Ronald M. Ruff,
Alexander I. Tröster, Jeffrey T. Barth, Sandra P. Koffler, Neil H. Pliskin, Cecil R. Reynolds, Cheryl H. Silver,
NAN position paper, Symptom validity assessment: Practice issues and medical necessity, NAN Policy & Planning
Committee, Archives of Clinical Neuropsychology, 2005, p. 420.
2
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et seq., and 416.1001,
et seq.
3
    SSA, POMS, DI 39545.120.A. (April 20, 2007) and 20 C.F.R. §§ 404.1519a, 404.1519k, 416.919a, and 416.919k.
4
    20 C.F.R. §§ 404.929, 405.370, and 416.1429.
5
    Senator Coburn is the ranking member of the Committee on Homeland Security and Governmental Affairs.
6
    See Appendix A for the full text of Senator Coburn’s letter.
7
    The Diagnostic and Statistical Manual of Mental Disorders, Fifth Edition, Text Revision 2012.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                       1
regarding SVTs’ usefulness in disability claims and other Federal agencies and private disability
insurance providers’ funding and use of SVTs.

According to SSA, the cost of an SVT could range from $75 to $200. While SSA had statistics
for the cost and volume of SVTs it had purchased in the last 5 years, the Agency stated the data
were incomplete and not validated for accuracy.

SSA pays over 8.8 million disabled workers an average of $1,130 per month, totaling over
$120 billion per year; SSA also pays 8.1 million SSI recipients an average of $507 per month,
totaling over $49 billion per year. Between December 2010 and December 2011, the average
monthly disabled worker benefit increased from $1,068 to $1,111, and enrollment increased
from 8.2 to 8.6 million beneficiaries. 8 During this same period, the average monthly SSI
payment increased from $501 to $502, and SSI enrollment increased from 7.9 to 8.1 million
recipients. 9

To accomplish our objectives, we reviewed relevant laws and policies and contacted SSA’s
Office of Disability Programs to discuss the Agency’s position for disallowing the purchase of
SVTs in its disability determinations. We reviewed medical literature and interviewed
representatives from two national neuropsychological 10 organizations regarding the use of SVTs
in determining disability. We also interviewed representatives from the Department of Veterans
Affairs (VA), the Railroad Retirement Board (RRB), and three private disability insurance
providers to determine whether they consider or fund the purchase of SVTs in their disability
claims processes. See Appendix B for additional information regarding our scope and
methodology.

RESULTS OF REVIEW
The Agency began discouraging the purchase of SVTs in the early 1990s. In January 2012, SSA
issued a reminder to DDSs that it should not purchase these tests. 11 According to SSA senior
officials, the Agency disallowed the purchase of SVTs because of weaknesses in the tests’
psychometric properties 12 and their limited value in determining, with certainty, a claimant’s
credibility. SSA stated that these tests could not prove whether a claimant was credible or
malingering because there is no test that, when passed or failed, conclusively determines the
presence of inaccurate self-reporting. 13 However, according to medical literature and national


8
    SSA, Annual Statistical Supplement, 2011, and SSA, Annual Statistical Supplement, 2012.
9
    Id.
10
  Neuropsychology studies the brain’s structure and function as they relate to specific psychological processes and
behaviors.
11
  SSA, DDS Administrative Letter 866, Consultative Examinations Malingering & Credibility Tests—
INFORMATION (January 26, 2012).
12
     Psychometric properties attest to the reliability and validity of a scale.
13
     SSA, POMS, DI 22510.006D (July 23, 2013).



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                          2
neuropsychological organizations, there is consensus in the medical community that SVTs are
useful in identifying malingering in disability evaluations, when used in conjunction with other
evidence in the case file. 14 We also determined VA, RRB, and private disability insurance
providers fund SVTs for use in their disability determination processes.

SSA’s Policy and Guidance on Determining the Credibility of
Disability Claimants’ Statements
SSA’s longstanding policy has been to consider all relevant evidence in a claimant’s case record
when making a disability determination. 15 Relevant evidence may include SVT results (when
they are part of the medical evidence of record) 16 and claimants’ statements regarding their
symptoms and pain intensities, given their statements are credible. To help adjudicators interpret
its policy, SSA issued a Social Security Ruling (SSR) in 1996 that explained factors adjudicators
must consider when assessing the credibility of individuals’ statements. 17 This SSR made clear
that adjudicators must document the weight assigned to an individual’s statements and the reason
for that weight in determining whether a claimant’s impairment(s) meets the disability criteria.
Additionally, adjudicators must consider all of the medical evidence in the case record, including
the individual’s statements, before concluding on the claimant’s disability. 18

Although SSA has acknowledged that tests for malingering could provide evidence that suggests
intentional symptom manipulation, the Agency stated these tests could not conclusively
determine a claimant’s credibility. 19 In the early 1990s, SSA discouraged the purchase of SVTs
and updated its policy over the ensuing years. For example, in January 2012, SSA issued a
reminder to DDSs that the Agency did not support the purchase of tests for malingering or
credibility and advised that DDSs should not purchase these tests if requested by the Office of
Disability Adjudication and Review. 20 Similarly, in July 2012, SSA’s Chief ALJ issued a
memorandum stating that ALJs could not order SVTs as part of a CE. 21 In November 2012,
SSA’s revised policy contained CE best practices and instructed adjudicators not to purchase



14
     Please see Appendix C for a list of medical literature regarding SVTs.
15
  SSA, POMS, DI 22501.001 (November 28, 2012). SSA established this policy on December 3, 1997. Prior to
this policy, Federal regulations also established that SSA consider all evidence in the case record. 20 C.F.R.
§§ 404.1520 (1985), 416.920 (1985), 404.1512 (1991), and 416.912 (1991).
16
     SSA, POMS, DI 22510.006D (July 23, 2013).
17
     SSA, SSR 96-7p (July 2, 1996) and 20 C.F.R. §§ 404.1529 and 416.929.
18
     SSA, SSR 96-7p (July 2, 1996).
19
  SSA, National Q&A, 08-003 Rev 2, Do tests of malingering have any value for SSA evaluations?
(October 22, 2012). SSA established this National Q&A on January 22, 2008.
20
  SSA, DDS Administrative Letter 866, Consultative Examinations Malingering & Credibility Tests—
INFORMATION (January 26, 2012).
21
  SSA, Chief Administrative Law Judge Memorandum to All Administrative Law Judges, Malingering and
Credibility Tests -- INFORMATION (July 31, 2012).



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                     3
CEs that included tests for malingering. 22 Lastly, in April 2013, SSA reorganized policy and
created a section that listed situations when adjudicators should not purchase CEs; one situation
was to evaluate credibility or malingering. 23

According to SSA senior officials, the Agency disallowed the purchase of SVTs because of
weaknesses in their psychometric properties and limited value in determining, with certainty, a
claimant’s credibility. In addition, SSA stated that in cases where there was a high likelihood of
malingering, the circumstances did not preclude the person from having a genuine medically
determinable impairment. However, SSA told us, depending on available resources, it plans to
seek external expertise to evaluate SVTs and their capacity to determine disability. According to
SSA, it was still developing the proposal to award a contract for studying SVTs.

The Medical Community Generally Considers SVTs Useful in
Determining Claimants’ Eligibility for Disability Benefits
Medical literature indicates there is consensus in the medical community that SVTs are useful in
determining the validity of disability claims (see Appendix C for medical literature regarding
SVTs). The literature indicates that malingering and symptom exaggeration may occur in as few
as 7.5 to over 50 percent of disability claims. The literature also stated that SVTs alone do not
automatically indicate that someone is attempting to fraudulently obtain benefits, but these
results speak directly to the validity of psychological and neuropsychological assessment results.
While concern that a claimant may have a genuine impairment is valid, advances have been
made to some SVTs to incorporate norms for a variety of people (including those with
neurological and psychiatric impairments). Medical literature also states evaluating multiple
sources of information, in addition to SVT results, is important. 24 That is, when a clinician 25
suspects malingering, they do not use SVT results in isolation. Rather, they use SVT results in
conjunction with other evidence in the case file to correctly determine whether a claimant is
disabled.

We interviewed representatives from two national neuropsychological organizations—the
American Academy of Clinical Neuropsychology (AACN) and National Academy of
Neuropsychology (NAN)—both of which wholly endorse using SVTs. The AACN consists of
psychologists who are board certified in the specialty of Clinical Neuropsychology under the




22
     SSA, POMS, DI 22510.007 (November 26, 2012).
23
  SSA, POMS, DI 22510.006D (July 23, 2013). SSA reorganized this policy in April 2013. SSA’s Office of
Disability Programs may approve rare exceptions to this prohibition on a case-by-case basis (for example, testing
ordered pursuant to a court order).
24
  Joseph L. Etherton, Kevin J. Bianchini, Kevin W. Greve, Megan A. Ciota, Test of Memory Malingering
Performance is unaffected by laboratory-induced pain: implications for clinical use, Archives of Clinical
Neuropsychology, May 2005, p. 382.
25
     A clinician is a person qualified in the clinical practice of medicine, psychiatry, or psychology.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                        4
auspices of the American Board of Clinical Neuropsychology. NAN is a nonprofit professional
membership association for experts in assessing and treating brain injuries and disorders.

AACN and NAN’s position is that SVTs—in addition to other measures and evidence—should
be used whenever secondary gain is involved, such as obtaining disability benefits. AACN
issued a statement in 2009 announcing there was consensus that a decision not to use SVTs
would rarely be justified. 26 Yet, AACN acknowledged it is common to not use these measures
when the evaluation is severely restricted in terms of time constraints or administrative
prohibition (for example, Social Security disability evaluations) or the individual being evaluated
is not appropriate to be given such measures (for example, severe and well-documented
intellectual disability). 27 NAN issued a position paper in 2005 stating the assessment of
symptom validity is essential in a neuropsychological evaluation, and a clinician should be
prepared to justify a decision not to assess symptom validity during a neuropsychological
evaluation. 28

Other Agencies and Private Disability Insurance Providers Allow
SVTs in Disability Determinations
VA and RRB, which administer disability benefits, allow the use of SVTs in their disability
determination processes. 29 VA told us it did not have a national policy regarding the use of
SVTs, but it neither requires nor prohibits its staff or contract personnel from using or purchasing
these tests. VA allows the individual clinician or examiner to decide when an SVT is needed.
VA stated that use of SVTs depends on administrative factors, the clinician or examiner’s
location, and the examiner’s preference. VA instructs its examiners to obtain results from all
pertinent studies, evaluations, and tests and to perform or order necessary additional studies,
evaluations, or tests before making the disability determination.

RRB allows its claims examiners to order the Minnesota Multiphasic Personality Inventory
(MMPI) test, but they must first obtain approval from the Disability Benefits Division in
headquarters. RRB told us it had more physical than mental disability cases. Therefore, it had
not used the MMPI in the last 2 fiscal years. RRB stated it made a disability decision once it
received the completed application and gathered all necessary evidence.




26
  Robert L. Heilbronner, Jerry J. Sweet, Joel E. Morgan, Glenn J. Larrabee, Scott R. Millis, & Conference
Participants, American Academy of Clinical Neuropsychology Consensus Conference Statement on the
Neuropsychological Assessment of Effort, Response Bias, and Malingering, The Clinical Neuropsychologist,
May 12, 2010, p. 1105.
27
     Id.
28
  Shane S. Bush, Ronald M. Ruff, Alexander I. Tröster, Jeffrey T. Barth, Sandra P. Koffler, Neil H. Pliskin,
Cecil R. Reynolds, Cheryl H. Silver, NAN position paper, Symptom validity assessment: Practice issues and
medical necessity, NAN Policy & Planning Committee, Archives of Clinical Neuropsychology, 2005, p. 421.
29
     We asked VA and RRB for SVT statistics. Similar to SSA, complete data was not readily available.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                   5
The three private disability insurance providers we contacted told us they allow the purchase and
use of SVTs in their disability claims processes. 30 A representative at the first provider stated its
disability income department uses SVTs in independent psychological and/or
neuropsychological evaluations but noted that SVT results were merely one data point that is
considered. According to this provider, SVTs help determine whether an individual is
over-reporting symptoms, unengaged in testing, or providing suboptimal effort during testing. A
representative at a second provider stated it uses SVTs extensively, but SVTs are just one piece
of information in the case record. As such, this provider also noted that it reviews the entire
record before making a disability decision. Lastly, a representative at the third provider stated
SVTs in the case record are necessary because without them, it is difficult to decide whether the
claimant is disabled. The provider also stated that including the failed effort of the SVT along
with other factors in the case record improves its ability to determine the claimant’s disability.

CONCLUSIONS
We determined that SSA is similar to the medical community, other Federal agencies, and
private disability insurance providers in that it reviews all relevant evidence in the case record
before making a disability determination. Unlike these other entities, SSA does not allow the
purchase of SVTs in its disability determinations because it stated these tests have limited value
in proving malingering. However, medical literature and national neuropsychological
organizations assert that SVTs are relevant in disability determinations. Other Federal agencies,
such as VA and RRB, allow the purchase of SVTs in their disability determination processes. In
addition, the three private disability insurance providers we contacted also support the use of
SVTs in determining disability claims.

SSA told us that, as resources allow, it plans to seek external expertise to evaluate its SVT policy
and the usefulness of SVTs in determining disability, which will also include an Institute of
Medicine examination on published research and studies on SVTs. The Agency stated that it
was still developing the proposal to award a contract for studying SVTs. We encourage SSA to
move forward with its plans. We further encourage SSA to evaluate the economic costs and
benefits of purchasing and using SVTs in its disability determination process.

AGENCY COMMENTS
SSA reviewed the draft report and provided comments. See Appendix D for the full text of the
Agency’s comments.




30
     We did not ask the private disability insurance providers for SVT statistics.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)         6
                                       APPENDICES




CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)
Appendix A – CONGRESSIONAL REQUEST




CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)   A-1
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies and
    procedures, applicable laws, and regulations.

•   Obtained and reviewed information received from SSA’s Offices of Disability Programs and
    Disability Determinations.

•   Interviewed SSA representatives from the Office of Disability Programs.

•   Interviewed representatives from the Department of Veterans Affairs, the Railroad
    Retirement Board, and three private disability insurance providers.

•   Interviewed the President of the American Academy of Clinical Neuropsychology and
    President and Executive Director of the National Academy of Neuropsychology.

•   Reviewed medical literature regarding symptom validity tests. 1 See Appendix C for medical
    literature reviewed.

Our scope and review of internal controls was limited to gaining an understanding of SSA’s
policies on symptom validity tests. The principal entity audited was the Office of Disability
Programs under the Office of the Deputy Commissioner for Retirement and Disability Policy.
We conducted our review between February and June 2013 in Birmingham, Alabama.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




1
 Symptom validity is defined as the accuracy or truthfulness of an examinee’s behavioral presentation, self-reported
symptoms, or performance on neuropsychological measures. Although SVTs are commonly referred to as
malingering tests, malingering is just one possible cause of invalid performance. Shane S. Bush, Ronald M. Ruff,
Alexander I. Tröster, Jeffrey T. Barth, Sandra P. Koffler, Neil H. Pliskin, Cecil R. Reynolds, Cheryl H. Silver,
NAN position paper, Symptom validity assessment: Practice issues and medical necessity, NAN Policy & Planning
Committee, Archives of Clinical Neuropsychology, 2005, p. 420.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                    B-1
Appendix C – MEDICAL LITERATURE REVIEWED
We reviewed the following medical literature regarding symptom validity 1 tests.

•      Kevin J. Bianchini, Charles W. Mathias, and Kevin W. Greve, Symptom Validity Testing: A
       Critical Review, The Clinical Neuropsychologist, 2001. 2
•      Board of Directors, American Academy of Clinical Neuropsychology (AACN) Practice
       Guidelines for Neuropsychological Assessment and Consultation, The Clinical
       Neuropsychologist, March 28, 2007.
•      Shane S. Bush, Ronald M. Ruff, Alexander I. Tröster, Jeffrey T. Barth, Sandra P. Koffler,
       Neil H. Pliskin, Cecil R. Reynolds, Cheryl H. Silver, NAN position paper, Symptom validity
       assessment: Practice issues and medical necessity, NAN Policy & Planning Committee,
       Archives of Clinical Neuropsychology, 2005.
•      James N. Butcher, Paul A. Arbisi, Mera M. Atlis, John L. McNulty, The construct validity of
       the Lees-Haley Fake Bad Scale Does this scale measure somatic malingering and feigned
       emotional distress?, Archives of Clinical Neuropsychology, 2003.2
•      Michael D. Chafetz, Malingering on the Social Security Disability Consultative Exam:
       Predictors and Base Rates, The Clinical Neuropsychologist, June 24, 2010.
•      Michael D. Chafetz, The Psychological Consultative Examination for Social Security
       Disability, Psychological Injury and Law, December 8, 2011.
•      Michael D. Chafetz, The A-Test: A Symptom Validity Indicator Embedded Within a Mental
       Status Examination for Social Security Disability, Applied Neuropsychology: Adult,
       May 30, 2012.
•      Michael D. Chafetz, Ph.D., Symptom validity issues in the psychological consultative
       examination for social security disability, The Clinical Neuropsychologist, June 2, 2010.
•      Michael D. Chafetz, Ph.D., ABPP, Reducing the Probability of False Positives in
       Malingering Detection of Social Security Disability Claimants, The Clinical
       Neuropsychologist, July 4, 2011.
•      Michael D. Chafetz, Joel P. Abrahams, Joy Kohlmaier, Malingering on the Social Security
       Disability Consultative Exam: A New Rating Scale, Archives of Clinical Neuropsychology,
       2007.


1
 Symptom validity is defined as the accuracy or truthfulness of an examinee’s behavioral presentation, self-reported
symptoms, or performance on neuropsychological measures. Although SVTs are commonly referred to as
malingering tests, malingering is just one possible cause of invalid performance. Shane S. Bush, Ronald M. Ruff,
Alexander I. Tröster, Jeffrey T. Barth, Sandra P. Koffler, Neil H. Pliskin, Cecil R. Reynolds, Cheryl H. Silver,
NAN position paper, Symptom validity assessment: Practice issues and medical necessity, NAN Policy & Planning
Committee, Archives of Clinical Neuropsychology, 2005, p. 420.
2
    Listing provided by the Social Security Administration.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)                    C-1
•      Michael D. Chafetz & Erica Prentkowski, A Case of Malingering by Proxy in a Social
       Security Disability Psychological Consultative Examination, Applied Neuropsychology:
       Adult, June 8, 2011.
•      Michael Chafetz, James Underhill, Estimated Costs of Malingered Disability, Archives of
       Clinical Neuropsychology, June 25, 2013.
•      H Dressing, B Widder, K Foerster, Symptom validity tests in psychiatric assessment: a
       critical review, Versicherungsmedizin, December 1, 2010. 3, 4
•      Joseph L. Etherton, Kevin J. Bianchini, Kevin W. Greve, Megan A. Ciota, Test of Memory
       Malingering Performance is unaffected by laboratory-induced pain: implications for clinical
       use, Archives of Clinical Neuropsychology, May 2005.
•      Manfred F. Greiffenstein, Kevin W. Greve, Kevin J. Bianchini, W. John Baker, Test of
       Memory Malingering and Word Memory Test: A new comparison of failure concordance
       rates, Archives of Clinical Neuropsychology, 2008.3
•      Robert L. Heilbronner, Jerry J. Sweet, Joel E. Morgan, Glenn J. Larrabee, Scott R. Millis, &
       Conference Participants, American Academy of Clinical Neuropsychology Consensus
       Conference Statement on the Neuropsychological Assessment of Effort, Response Bias, and
       Malingering, The Clinical Neuropsychologist, May 12, 2010.
•      Institute of Medicine and National Research Council of the National Academies, Committee
       on Veterans’ Compensation for Posttraumatic Stress Disorder, Board on Military and
       Veterans Health, Board on Behavioral, Cognitive, and Sensory Sciences, PTSD
       Compensation and Military Service, 2007.
•      Glenn J. Larrabee, Ph.D., Scott R. Millis & John E. Meyers, 40 Plus or Minus 10, a New
       Magical Number: Reply to Russell, The Clinical Neuropsychologist, June 15, 2009.
•      R Rogers, KW Sewell, MA Martin, MJ Vitacco, Detection of feigned mental disorders: a
       meta-analysis of the MMPI-2 and malingering, Assessment, June 2003.3,4
•      Roger Z. Samuel, M.D., and Wiley Mittenberg, Ph.D., Determination of Malingering in
       Disability Evaluations, Primary Psychiatry, 2005.
•      Daniel J. Slick, Elisabeth M.S. Sherman, and Grant L. Iverson, FORUM, Diagnostic Criteria
       for Malingered Neurocognitive Dysfunction: Proposed Standards for Clinical Practice and
       Research, The Clinical Neuropsychologist, 1999.




3
    Listing provided by the Social Security Administration.
4
    We only reviewed the abstract for this article.



CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)     C-2
Appendix D – AGENCY COMMENTS
August 20, 2013

Subject: Audit No. 22013021 (A-08-13-23094) -- OIG Draft Congressional Response Report,
         "The Social Security Administration's Policy on Symptom Validity Tests in
         Determining Disability Claims"

Steve,

Thank you for the opportunity to review the subject report. We appreciate its overall findings;
however, we believe the report should note that the professional societies cited in the report
recommend that clinicians use Symptom Validity Tests (SVT). We believe this point is
important to note since we use adjudicators, not clinicians who treat patients. In the absence of a
complete list of the literature and articles you reviewed, we cannot determine if your review
included any medical literature that does not support the use of SVTs and, if so, how the varying
opinions are reconciled.

We believe that tests cannot prove malingering, as there are no tests that conclusively determine
the presence of inaccurate patient self-reporting. We do not give greater weight to a test than to
other symptom validity factors. The finding that SVTs are useful in making disability
determinations for private disability insurance providers or for other Federal agencies does not
mean that SVTs would have the same usefulness to our disability programs, considering our
policies on making disability determinations and the practicalities of administering a large
national disability program. We would have extreme difficulty developing criteria that require
the results of SVTs in some cases, but not in others. People who allege physical disorders are no
more or less motivated by the possibility of receiving monetary payments than people who allege
mental disorders. This report does not provide estimates on possible increases or decreases in
program costs or the time it would take to render a disability determination based on SVT
results.

Due to differing opinions on the use of SVTs, and whether they add value to our disability
programs, we plan to seek impartial, external expertise to evaluate our policy on the purchase of
SVTs, as resources permit. In addition, we plan to seek external expertise on psychological tests
from the Institute of Medicine to include an examination of published research and studies on
SVTs, including those published by Dr. Chafetz. Our goal is to determine the effectiveness and
costs of requiring and purchasing SVTs under our disability programs, as well as their
applicability to anyone who claims they are disabled.

We provided technical comments and listings from medical literature on the shortcomings of
SVTs at the staff level. We have no further comments.

Gary S. Hatcher, CPA, CGFM




CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)    D-1
Appendix E – MAJOR CONTRIBUTORS
Theresa Roberts, Acting Director, Atlanta Audit Division

Jeff Pounds, Audit Manager, Birmingham Audit Office

Janet Matlock, Senior Auditor




CRR: SSA’s Policy on Symptom Validity Tests in Determining Disability Claims (A-08-13-23094)   E-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
